       IMPLEMENTATION REVIEW
OF THE FEDERAL ACQUISITION SERVICE'S
       ALLIANT ORDERING GUIDE
 REPORT NUMBER A090009/Q/A/P09002
          DATED MAY 1, 2009
     ASSIGNMENT NUMBER A100132


            March 30, 2010
Date:         March 30, 2010

Reply to
Attn of:      Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:      Implementation Review of the Federal Acquisition Service's Alliant
              Ordering Guide, Report Number A090009/Q/A/P09002 dated May 1, 2009
              Assignment Number A100132

To:           James A. Williams, Commissioner, Federal Acquisition Service (Q)

The Acquisition Programs Audit Office conducted an implementation review of the
actions taken by the General Services Administration’s (GSA’s) Federal Acquisition
Service (FAS) in response to the five recommendations included in the Review of the
Federal    Acquisition   Service's   Alliant    Ordering     Guide,   Report      Number
A090009/Q/A/P09002 issued on May 1, 2009 (Alliant ordering guide report). That
review focused on evaluating the draft Alliant ordering guide to determine if it described
the contract requirements and processes clearly and sufficiently enough to ensure
proper use of the contract, promote adequate competition, and result in the best value
for the government. As required by GSA Order ADM P 2030.2C, FAS provided a formal
action plan on July 1, 2009, which identified specific steps to be completed to address
the report recommendations. Appendix A includes a listing of the five Alliant ordering
guide report recommendations and Appendix B contains a copy of the management
action plan provided by FAS.

Background

FAS offers technology services and solutions to customer agencies through use of
Governmentwide Acquisition Contracts (GWACs). GWACs are task or delivery order
contracts established by one agency for government-wide use. Alliant is an FAS
GWAC that provides a wide range of information technology solutions to customer
agencies. FAS typically develops ordering guides for its contracts, which are intended
to assist program officials, ordering offices, ordering contracting officers, and
contractors in the proper use of the specific GWAC.

Objective, Scope, and Methodology

The objective of this implementation review was to determine whether FAS has taken
appropriate corrective actions as outlined in the action plan for the Alliant ordering guide
report.
To accomplish the objective of our review, we:
   • Reviewed the Alliant ordering guide report dated May 1, 2009.
   • Obtained and reviewed the applicable action plan dated July 1, 2009 from GSA’s
      Internal Control and Audit Division’s audit tracking system.
   • Analyzed the current Alliant ordering guide published July 21, 2009, to determine
      if the action plan steps had been completed and if our recommendations were
      adequately addressed.

We conducted this implementation review during March 2010.

Results of Review

The results of our implementation review indicate that FAS has taken appropriate
corrective actions to address the Alliant ordering guide report recommendations.
Overall, we found that the changes made to the Alliant ordering guide help to ensure
proper use of the contract, promote adequate competition, and result in best value for
the government. We determined that no further action is necessary to address our
recommendations.

Internal Controls

This review was limited in scope in order to answer the objective of this review. Thus,
our assessment and evaluation of internal controls was restricted to those issues
identified in the Alliant ordering guide report.

We would like to commend you and your staff for implementing timely corrective actions
in response to our recommendations. If you have any questions regarding this review,
please contact me at (816) 926-8605.




Michelle L. Westrup
Audit Manager
Acquisition Programs Audit Office




                                          2
APPENDICES
                           IMPLEMENTATION REVIEW
                    OF THE FEDERAL ACQUISITION SERVICE'S
                           ALLIANT ORDERING GUIDE
                     REPORT NUMBER A090009/Q/A/P09002
                              DATED MAY 1, 2009
                          Assignment Number A100132


                                    APPENDIX A

                            Recommendations from the
          Review of the Federal Acquisition Service's Alliant Ordering Guide
              Report Number A090009/Q/A/P09002 dated May 1, 2009

We recommend that the Commissioner of the Federal Acquisition Service:

   1. Expand the “Scope” section of the ordering guide to include: a) Additional
      information regarding the scope review process, b) high-risk work scope areas,
      c) examples of unauthorized actions, and d) examples of IT services and
      solutions allowed.

   2. Provide detailed information in the ordering guide to OCOs [ordering contracting
      officers] and Alliant contractors regarding their individual roles and
      responsibilities.

   3. Incorporate additional information regarding RFP [request for proposal]
      submission guidelines and outline the importance of a specific and clearly
      defined SOW [statement of work] in the ordering guide.

   4. Provide information in the ordering guide regarding the use and benefits of
      streamlined acquisition procedures.

   5. Emphasize to OCOs the importance of reviewing and validating other direct costs
      and option year pricing and provide information on methods to assess other non-
      pricing evaluation factors in the ordering guide.




                                          A-1
                IMPLEMENTATION REVIEW
         OF THE FEDERAL ACQUISITION SERVICE'S
                ALLIANT ORDERING GUIDE
          REPORT NUMBER A090009/Q/A/P09002
                   DATED MAY 1, 2009
              ASSIGNMENT NUMBER A100132


                          APPENDIX B

                       Action Plan for the
Review of the Federal Acquisition Service's Alliant Ordering Guide
    Report Number A090009/Q/A/P09002 dated May 1, 2009




                               B-1
                       Action Plan for the
Review of the Federal Acquisition Service's Alliant Ordering Guide
 Report Number A090009/Q/A/P09002 dated May 1, 2009 (cont.)




                               B-2
                                                                Action Plan for the
                                         Review of the Federal Acquisition Service's Alliant Ordering Guide
                                          Report Number A090009/Q/A/P09002 dated May 1, 2009 (cont.)

Action Plan for the Review of the Federal Acquisition Service's Alliant Ordering Guide Report Number A090009/Q/A/P09002 dated May 1, 2009 continued

Report Number A090009 Q A P09002 Recommendation Number 03
Completion Date August 15, 2009

RECOMMENDATION (QUOTE IN FULL, IF SHORT, OR GIVE SUBSTANCE, IF LONG)
Incorporate additional information regarding RFP submission guidelines and outline the importance of a specific and clearly defined SOW in the ordering guide.
ACTION TO BE TAKEN STEP-BY-STEP

SUPPORTING DOCUMENTATION TO BE SENT TO BECA
1. Provide RFP submission guidelines.
Revised Ordering Guide, pp. 13-15
DOCUMENTATION WILL BE SENT BY 6/22/09 Completed/attached
2. Provide specific and clearly defined requirements.
Revised Ordering Guide, p. 14
DOCUMENTATION WILL BE SENT BY 6/22/09 Completed/attached
3. Publish updated Alliant GWAC Ordering Guide on Web.
Copy of Alliant GWAC Ordering with Web address
DOCUMENTATION WILL BE SENT BY 8/15/2009

Report Number A090009 Q A P09002 Recommendation Number 04
Completion Date August 15, 2009

RECOMMENDATION (QUOTE IN FULL, IF SHORT, OR GIVE SUBSTANCE, IF LONG)
Provide information in the ordering guide regarding the use and benefits of streamlined acquisition procedures.
ACTION TO BE TAKEN STEP-BY-STEP
SUPPORTING DOCUMENTATION TO BE SENT TO BECA

1. Provide benefits of streamlined acquisition procedures.
Revised Ordering Guide, p. 15/App. D
DOCUMENTATION WILL BE SENT BY 6/22/09 Completed/attached

2. Publish updated Alliant GWAC Ordering Guide on Web.
Copy of Alliant GWAC Ordering Guide
DOCUMENTATION WILL BE SENT BY 8/15/09

Report Number A090009 Q A P09002 Recommendation Number 05
Completion Date August 15, 2009




RECOMMENDATION (QUOTE IN FULL, IF SHORT, OR GIVE SUBSTANCE, IF LONG)
Emphasize to OCOs the importance of reviewing and validating other direct costs and option year pricing and provide information on methods to assess other non-pricing evaluation factors in the ordering guide.


ACTION TO BE TAKEN STEP-BY-STEP SUPPORTING DOCUMENTATION TO BE SENT TO BECA
1. Provide other direct costs (ODCs) and option year pricing.
Revised Ordering Guide, p.15-16, Appendix E
DOCUMENTATION WILL BE SENT BY 6/22/09 completed/attached
2. Provide Non-pricing evaluation factors.
Revised Ordering Guide, p. 14
DOCUMENTATION WILL BE SENT BY 6/22/09 completed/attached
3. Publish updated Alliant GWAC Ordering Guide on Web.
Copy of Alliant GWAC Ordering Guide and Web address
DOCUMENTATION WILL BE SENT BY 8/15/09




                                                                                                                              B-3
                       IMPLEMENTATION REVIEW
                OF THE FEDERAL ACQUISITION SERVICE'S
                       ALLIANT ORDERING GUIDE
                 REPORT NUMBER A090009/Q/A/P09002
                          DATED MAY 1, 2009
                      Assignment Number A100132



                             APPENDIX C

                           Report Distribution

Commissioner, Federal Acquisition Service (Q)……………………………………………3

Internal Control and Audit Division (BEI) …………………………………………………...1

Assistant Inspector General for Auditing (JA, JAO) ……………………………………….2

Assistant Inspector General for Investigations …………………………………………....1




                                  C-1
